Audit Report 98-12
Federal Prison System
Management Letter Report
Fiscal Year 1996
Audit Report 98-12, (3/98)
TABLE OF CONTENTS
OFFICE OF THE INSPECTOR GENERAL COMMENTARY AND SUMMARY
MANAGEMENT LETTER REPORT
BOP MAINTENANCE PROGRAMMERS AND SYSTEMS ANALYSTS HAVE ACCESS
TO FINANCIAL DATA AND PROGRAMS
CERTAIN EXPENSES AND REVENUES ARE NOT REPORTED IN THE YEAR
THEY OCCUR
EMPLOYEE BENEFITS LIABILITY WAS NOT RECOGNIZED
UNRECONCILED FUND BALANCE WITH TREASURY
PRIOR-YEAR TREASURY PAYMENT MODULE DIFFERENCES ARE UNRECONCILED
ACCOUNTS RECEIVABLE BALANCES ARE UNDERSTATED
NO ALLOWANCE FOR CERTAIN DOUBTFUL ACCOUNTS
ALLOCATIONS TO OTHER FEDERAL AGENCIES ACCOUNT WAS NOT
PERIODICALLY RECONCILED
REAL PROPERTY DEPRECIATION POLICY INVOLVES DELAYS BEFORE
DEPRECIATION COMMENCES
TRUST FUND INVENTORY VALUATION
APPENDIX - AUDIT DIVISION ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
TO CLOSE REPORT
OFFICE OF THE INSPECTOR GENERAL
COMMENTARY AND SUMMARY
The Federal Prison System (FPS) is comprised of the appropriated activities of the Bureau
of Prisons (BOP), Federal Prison Industries (FPI) and the Commissary Trust Fund
(Commissary). BOP is charged with overseeing the operations of the prison system. Its
mission is to protect society by confining offenders in controlled environments of prisons
and community based facilities. FPI operates under the trade name UNICOR and is a
wholly-owned, self-sustaining, government corporation manufacturing products for sale to
federal agencies while providing employment and training to inmates in the prison system.
The Commissary, also self-sustaining, provides inmates with access to products and
services not provided by the BOP.
Federal prisons have been in existence since 1891 when Congress enacted legislation
authorizing the construction of three federal penitentiaries under the authority of the
Justice Department's Superintendent of Prisons and Prisoners. In 1930, the BOP was
established through Public Law 218-71 to oversee federal prisons. In 1932, Congress
approved the operation of Commissaries within federal prisons. Finally, in 1934 the FPI
was formed as a component of the FPS. Presently, the FPS includes approximately 105,000
offenders confined in 86 federal facilities and contract facilities throughout the United
States.
In FY 1996, FPS received $2.9 billion for its appropriated activities. The Salaries and
Expense appropriation was $2.45 billion. The Building and Facilities appropriation was
$357 million and $13.5 million was appropriated for Violent Crime Reduction Program (VCRP)
activities. In addition, $152 million and $485 million in funds were generated through
Commissary and FPI revolving fund activities, respectively.
The OIG contracted with Cotton & Company, Certified Public Accountants (CPA), to
perform the FY 1996 audit of the FPS Combined Statement of Financial Position (Report
97-25A) as part of the Department of Justice's (DOJ) effort to implement the Government
Management Reform Act of 1994 (GMRA). GMRA requires an annual financial statement audit of
the DOJ beginning with FY 1996. The audit was conducted in accordance with Office of
Management and Budget Bulletin No. 93-06, "Audit Requirements for Federal Financial
Statements." The OIG performs an oversight role in the audit process and ensures
compliance with the GMRA by monitoring the progress of the audit, reviewing supporting
workpapers, coordinating the issuance of reports, and following up on findings and
management letter issues.
The audit of the FPS FY 1996 combined statement of financial position resulted in a
disclaimer of opinion. The independent auditors were unable to substantiate a significant
portion of real property because the FPS did not maintain appropriate accounting records
and relevant documentation beyond the 6 year federal records retention period. The
independent auditors also determined that real property was not capitalized or depreciated
properly and that construction work in progress and accounts payable may be overstated.
The independent auditors were unable to apply audit procedures sufficiently to determine
the extent to which the combined statement of financial position may have been affected by
these conditions. As a result, the scope of the independent auditors' work was not
sufficient for the auditor to express an opinion.
The auditors prepared the management letter as part of their audit of the FY 1996 FPS
financial statement. The auditors were not contracted to perform control testing
sufficient to enable them to express an opinion on the internal control structure or
compliance with laws and regulations. Accordingly they do not express such opinions.
However, they did note certain conditions involving the internal control structure and its
operations. The management letter presents those internal control weaknesses that, in the
independent auditor's opinion, do not have a material effect on the financial statements,
but are areas of the management process that could, in some instances, adversely affect
the organization's ability to record, process, summarize, and report financial data.
In this management letter, the auditors noted weaknesses in the following areas: (1)
information system security, (2) recording of expenses and revenues, (3) recording of
Federal Employees' Compensation Act (FECA) liability, (4) Fund Balance with Treasury
reconciliation, (5) Treasury payment module reconciliation, (6) accounts receivable, (7)
allowance for doubtful accounts, (8) allocations to Other Federal Agencies reconciliation,
(9) depreciation for real property, and (10) Trust Fund Inventory Valuation. Strengthening
internal controls in these areas is considered to be important and presents an opportunity
to improve operating efficiency.
APPENDIX
OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
TO CLOSE THE REPORT
Recommendation Number:
Closed. Based on management's assurance that FMS is being phased out, the
recommendation is closed. However, management should ensure that the new system includes
adequate controls that prevent programmers and analysts from having access to production
data.
Closed. The auditors will test implementation of this recommendation during
future audits of the financial statements.
Resolved. This recommendation can be closed when management provides a copy of
the new policy requiring institutions to determine which projects meet the criteria for
capitalization in the year the B&F projects are initiated, so that revenues and
expenses for non-capital projects, will be recognized in the year they occur.
Resolved. This recommendation can be closed when BOP management provides
documentation that shows they have included in the financial statements, the full portion
of the FECA liability previously paid by DOL.
Resolved. This recommendation can be closed when we receive a copy of the new
policy requiring BOP Central Office to reconcile the agency-wide Fund Balance with
Treasury each month. Also, please provide a copy of the first reconciliation performed
after the new policy is in effect.
Resolved. This recommendation can be closed when we receive a copy of the revised
institution TPM proofcheck with the added line for prior-year carryovers.
Resolved. This recommendation can be closed when BOP management communicates the
results of their year-end assessment of the completeness and accuracy of accounts
receivable.
Resolved. This recommendation can be closed when BOP management provides
documentation substantiating that an allowance for uncollectible accounts receivable has
been set up on the general ledger and included in the financial statements.
Resolved. This recommendation can be closed when BOP identifies the staff
assigned responsibility for reconciling general ledger Account 172.0 to ensure that it
properly reflects activities reported to the Department of Treasury. Also, please provide
a copy of the new proofcheck.
Closed.
Resolved. This recommendation can be closed when BOP management provides
documentation of the analysis performed to adjust Commissary Trust Fund inventories as of
September 30, 1997 so that the inventory value reported on the financial
statements approximates historical costs.
#####